No. 20-480

IN THE

'upreme Court of the Buffet( &tato
DAVID BABCOCK,
Petitioner,
v.

COMMISSIONER OF SOCIAL SECURITY,
Respondent.

On Writ of Certiorari to the
United States Court of Appeals
for the Sixth Circuit

BRIEF FOR PETITIONER DAVID BABCOCK

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
10,583 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on May 20, 2021.

( 1.
Colin Casey Z<Iogan
Wilson-Epes Printing Co., Inc.

